Supreme Court, U.S.
FFLED

AIVER

JAN 1 2 2021
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
-

- 20-6751

Supreme Court Case No

Roger Darryl Waldrep

David Shinn et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:

El Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respondents., Please enter my
_ appearance as Counsel of Record for the following respondent(s):

0 I am a member of the Bar of the Supreme Court of the United States.

El I am not presently a member of the ,Bar of this Court., Should a response be requested, the response
will be filed by a Bar member.
Signature
Date.

Eliza Ybarra

January 5, 2021

(Type or print) Name

Eliza Ybarra
0 Mr. 0 Ms.

Firm

D Mrs.

Miss

Arizona Attorney General's Office

Address

2005 N. Central Ave.

City & State
Phone

Digftatly signed by Eliza Ybarra
on.Elica Ybarra, o.Arizona Attorney Generals Mace, ou.CrlIntaal Appeals. emall.araa.ybamileamo goy, c=IJS
Date: 2021.01.05 15,56:01

Phoenix, Arizona

602.542.8582

Zip
Email

85004

Eliza.Ybarra@azag.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC: Roger Darryl Waldrep

RECEIVED
JAN 2 2 2021
COURT. '
SUPREME

